                                        National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




                                                                                    .
MEMORANDUM

DATE:              September 30, 2011

TO:                Jeffrey M. Lupis, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT:              NSF OIG Audit Report No. 11-1-18; Independent Audit of EDJ Associates,
                      Incorporated Post Award Accounting System


At the request of the Director of NSF, we contracted with the Defense Contract Audit Agency
(DCAA) Reston Branch Office, to perform a post award accounting system audit of EDJ
Associates (EDJ). EDJ has several small contracts with NSF for conference and proposal
processing support, including event planning, peer review support, and information management.
We have attached the DCAA audit report on EDJ’s accounting system.

The objective of this audit was to assess the adequacy of EDJ’s accounting system to properly
accumulate and bill costs under NSF awards, in accordance with federal and NSF requirements.
DCAA reported that EDJ’s accounting system is adequate for accumulating and billing costs on
its government contracts.

The audit was performed in accordance with Government Auditing Standards.

We are providing a copy of this memorandum to NSF’s program and administrative offices. The
responsibility for audit resolution rests with DACS. Accordingly, we ask that no action be taken
concerning the report’s findings without first consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

     •     Reviewed DCAA’s approach and planning of the audit;
     •     Evaluated the qualifications and independence of the auditors;
     •     Monitored the progress of the audit at key points;
                                                         NSF OIG Audit Report No. OIG-11-1-18


      •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
          audit progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit report on EDJ and the conclusions expressed in the
reports. The NSF OIG does not express any opinion on EDJ’s accounting system or the
conclusions presented in DCAA’s audit reports and memorandum.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor (703) 292-5003 or Jannifer Jenkins
at (703) 292-4996.




Attachment: DCAA Audit Report No. 6321-2011H17741004, Independent Audit of EDJ
Associates, Incorporated Post Award Accounting System


cc:       Mary Santonastasso, CAAR
          Paul Perez, DAS




                                                2
Defense Contract Audit Agency
                      United States
                  Department of Defense
                        July 14, 2011

      Independent Audit of EDJ Associates, Incorporated
              Post Award Accounting System

          AUDIT REPORT NO. 6321–2011H17741004

RESTRICTIONS:
Audit Report No. 6321-2011H17741004
Audit Report No. 6321-2011H17741004


           DEFENSE CONTRACT AUDIT AGENCY

PREPARED FOR: Assistant Inspector General for Audit
              National Science Foundation
              Office of the Inspector General
              Dr. Brett M. Baker
              4201 Wilson Boulevard, Stafford II - 705
              Arlington, VA 22230

PREPARED BY:       DCAA Reston Branch Office
                   171 Elden Street, Suite 300
                   Herndon, VA 20170-4810
                          Telephone No.        (703) 735-8221
                          FAX No.              (703) 735-8234
                          E-mail Address       dcaa-fao6321@dcaa.mil

REFERENCES:        Relevant Dates: See Page 5

CONTRACTOR:        EDJ Associates, Incorporated
                   13873 Park Center Road, Suite 301
                   Herndon, VA 20171-3287
                   (CAGE Code: 3CCR8)

                                                                       Page
CONTENTS:          Subject of Audit                                       1
                   Scope of Audit                                         1
                   Results of Audit                                       2
                   Contractor Organization and Systems                    3
                   DCAA Personnel and Report Authorization                5
                   Audit Report Distribution                              6
Audit Report No. 6321-2011H17741004


                                    SUBJECT OF AUDIT

        As you requested on September 21, 2010 , we examined EDJ Associates, Inc.’s
accounting system as of June 15, 2011 to determine whether it is adequate for accumulating costs
under Government contracts and whether the billing procedures are adequate for the preparation
of cost reimbursement claims; i.e., interim public vouchers and progress payments.

       EDJ Associates is responsible for establishing and maintaining an adequate accounting
system for accumulating and billing costs under Government contracts. Our responsibility is to
express an opinion on the adequacy of the accounting system based on our examination.


                                      SCOPE OF AUDIT

        We conducted our examination in accordance with Generally Accepted Government
Auditing Standards (GAGAS), except DCAA does not currently have an external opinion on
its quality control system as required by GAGAS 3.55. The most recent external quality
control review opinion expired on August 26, 2009. GAGAS requires that we plan and
perform the examination to obtain reasonable assurance about whether the data and records
examined are free of material misstatement. An examination includes:

       •   obtaining an understanding of internal control for accumulating and billing costs
           under Government contracts;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor; and
       •   evaluating the overall data and records presentation.

       We evaluated the accounting system using the applicable requirements contained in:

       •   Federal Acquisition Regulation (FAR);
       •   National Science Foundation Grant Policy Manual; and
       •   OMB Circular A-110 - Revised 11/19/93 as Further Amended 9/30/99.

       Our examination included determining if the accounting system provides for the
following procedures:

       •   direct and indirect costs are appropriately identified, accumulated, and reported;
       •   unallowable costs are appropriately identified and segregated;
       •   indirect costs are allocated equitably and consistently to contracts and other cost
           objectives;
Audit Report No. 6321-2011H17741004


       •   direct and indirect labor costs are identified to intermediate or final cost objectives
           by the timekeeping system and charged to appropriate cost objectives by the labor
           distribution system;
       •   indirect billing rates are acceptable to the contracting officer or contract auditor in
           accordance with FAR 42.704;
       •   cost information for billings is based on currently posted accounting data;
       •   contractor and vendor costs are paid in accordance with subcontract and invoice
           terms and conditions and ordinarily paid prior to the contractor’s next payment
           request to the Government; and
       •   contract billings are reviewed by management to assure compliance with contract
           terms and provisions; e.g., frequency of billings, special withholding provisions,
           contract unallowables, etc.

       Our examination was performed from February 7, 2011 to June 15, 2011.

       We believe that our examination provides a reasonable basis for our opinion.

         The contractor claims exemption under 48 CFR 9903.201-1(b) (3) from the practices
required by the Cost Accounting Standards Board rules and regulations because it considers
itself a small business concern.

        Our examination did not include tests to determine whether internal control is in
operation or operating effectively. Because of inherent limitations in any internal control,
misstatements due to error or fraud may occur and not be detected. Also, accounting system
internal control is subject to the risk that the internal control may become inadequate because of
changes in conditions.


                                     RESULTS OF AUDIT

        In our opinion, EDJ Associates’ accounting system is adequate for accumulating and
billing costs under Government contracts.

        Our examination was limited to determining whether the contractor’s accounting system
is adequate for accumulating and billing costs under Government contracts. We did not perform
a comprehensive examination of the contractor’s overall accounting system and its related
internal controls. Accordingly, we express no opinion on contractor’s system of internal control
taken as a whole.

        We discussed the results of our examination with                        Controller, in an
exit conference held on June 23, 2011.




                                                 2
Audit Report No. 6321-2011H17741004


                      CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization

       EDJ Associates is a closely held Corporation incorporated in the Commonwealth of
Virginia in January 1999. EDJ provides services for the planning, design, and implementation of
a wide range of projects in the areas of event planning, peer review support, and information
management. For the calendar year ended December 31, 2010, the contractor had sales of
                 with the Governments share being 100 percent. At the end of CY 2010, the
contractor had

2.     Accounting System

        EDJ’s accounting system is acceptable for accumulating and reporting costs under
Government contracts. EDJ’s accounting period is from January 1 to December 31. The
contractor maintains an automated job-order cost accounting system utilizing the Deltek GCS
accounting software. All direct costs associated with a project are accumulated under that
project's specific project code. Indirect costs are accumulated in pools. These indirect costs are
allocated to projects based on the specific pool's allocation base. The following schedule
describes the contractors indirect cost pools and related allocation bases.


           Indirect Expense Pools          Description of Allocation Base




3.     Estimating System

       We have not performed an estimating system survey at this contractor location.




                                                 3
Audit Report No. 6321-2011H17741004

4.     Billing System

       We have not performed a billing system audit at this contractor location.

5.     Cost Accounting Standards

         The contractor claims exemption under 48 CFR 9903.201-1(b) (3) from the practices
required by the Cost Accounting Standards Board rules and regulations because it considers
itself a small business concern.




                                               4
Audit Report No. 6321-2011H17741004


                                      DCAA PERSONNEL

Primary contacts regarding this audit:                      Telephone No.




Other contact regarding this audit report:




General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES


Request for Audit: Dated September 21, 2010
Due Date: March 31, 2011
Revised Due Date: July 15, 2011


AUDIT REPORT AUTHORIZED BY:




                                               5
Audit Report No. 6321-2011H17741004


                            AUDIT REPORT DISTRIBUTION

                                                   E-mail Address
Assistant Inspector General for Audit
National Science Foundation
Office of the Inspector General                    bmbaker@nsf.gov
Dr. Brett M. Baker
4201 Wilson Boulevard, Stafford II – 705
Arlington, VA 22230

Mrs. Sherrye McGregor, JD/Contracting Officer      smcgrego@nsf.gov
4201 Wilson Boulevard, Stafford II – 705
Arlington, VA 22230

EDJ Associates, Inc                                (Copy furnished thru PCO)
13873 Park Center Road, Suite 301
Herndon, VA 20171-3287




                                            6
